<html>
<title> - HEARING ON OVERSIGHT OF THE ELECTION ASSISTANCE COMMISSION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
 
28-926

2006

       HEARING ON OVERSIGHT OF THE ELECTION ASSISTANCE COMMISSION

=======================================================================

                                HEARING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, JUNE 8, 2006

                               __________

      Printed for the use of the Committee on House Administration

                   COMMITTEE ON HOUSE ADMINISTRATION

                        VERNON EHLERS, Chairman
ROBERT W. NEY, Ohio                  JUANITA MILLENDER-McDONALD, 
JOHN L. MICA, Florida                    California
CANDICE MILLER, Michigan               Ranking Minority Member
JOHN T. DOOLITTLE, California        ROBERT A BRADY, Pennsylvania
THOMAS M. REYNOLDS, New York         ZOE LOFGREN, California

                           Professional Staff

                      Will Plaster, Staff Director
                George Shevlin, Minority Staff Director

 
            OVERSIGHT OF THE ELECTION ASSISTANCE COMMISSION

                              ----------                              


                         THURSDAY, JUNE 8, 2006

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10 a.m., in room 
1310, Longworth House Office Building, Hon. Vernon J. Ehlers 
(chairman of the committee) presiding.
    Present: Representatives Ehlers, Ney, Mica, Miller and 
Millender-McDonald.
    Staff Present: Paul Vinovich, Counsel; Audrey Perry, 
Counsel; Peter Sloan, Clerk; Thomas Hicks, Minority 
Professional Staff Member; George Shevlin, Minority Staff 
Director; Janelle Hu, Minority Professional Staff Member; and 
Denise Mixon, Minority Communications Director.
    The Chairman. Good morning, ladies and gentlemen. Today the 
House Administration Committee will come to order. I am very 
pleased to welcome some very special guests, but I would like 
to remind members of our audience here today to please silence 
your phones, which I am doing right now, and pagers and other 
electronic equipment which will cause interruption to the 
hearing, except those pagers which will caution us to vote, 
because if that happens, we must leave the chamber and vote. 
Thank you very much.
    Today the Committee convenes an important oversight hearing 
on the Election Assistance Commission, better known as the EAC. 
The EAC, which was created by the Help America Vote Act of 
2002, better known as HAVA, was established to assist the 
States in their efforts to comply with our Federal election 
laws. That mission will truly be put to the test this year as 
the upcoming midterm election marks the first in which the 
states must comply with all of the HAVA requirements.
    Under HAVA, states and localities must comply with Federal 
requirements and are provided with Federal funds to help them 
meet these problems. Over $3 billion has been appropriated and 
distributed to the states to help them comply with the law, a 
significant investment by any standard.
    HAVA created the EAC to distribute these funds and to 
provide guidance to the states on methods of compliance. While 
some of the HAVA requirements were in place for our last 
general election in 2004, this year marks the first in which 
the states must comply with all of the HAVA requirements. In 
particular, several new provisions, including the voting 
system, disability access, and statewide registration 
requirements, are now in effect for the first time.
    These important provisions have forced some changes to be 
made at the state and local level. Not surprisingly, some of 
the local officials trying to make theses changes have 
encountered some difficulties, which is an increasing area of 
concern for this Committee as the midterm election is now fewer 
than six months away.
    Many states and localities are still struggling to comply 
with HAVA prior to their primaries and the November general 
election and are looking to the EAC for assistance to ensure 
that they meet all requirements under the law.
    Today's hearing gives us an opportunity to hear from the 
EAC Commissioners about their efforts to help states and 
localities implement HAVA. It also gives us a chance to hear 
from them about what problems they are seeing and what is being 
done to solve them; and, of course, we are interested in 
knowing whether additional legislation is going to be needed to 
resolve some of these problems.
    I thank the Commissioners for joining us today, and I look 
forward to hearing their testimony.
     At this time I would like to recognize the Ranking Member, 
Ms. Millender-McDonald, for any opening remarks she may have.
    Ms. Millender-McDonald. Thank you so much, Mr. Chairman, 
and good morning to you, and good morning to this outstanding 
Commission.
    Mr. Chairman, let me thank you for calling this very 
important oversight hearing. It is so timely at this point as 
we go into midterm election. The Election Assistance 
Commission, EAC, was formed after the 2000 Presidential 
election through the Help America Vote Act, which is HAVA, to 
serve as a national clearinghouse for all matters involving 
elections administration.
    Pursuant to HAVA, the EAC has distributed billions of 
dollars, as the Chairman stated, to the States to improve the 
facilitation of elections operations. In the short period of 
the EAC's existence, our elections have benefited from the 
guidance, research and standards provided by this great 
Commission.
    Nevertheless, improvements are still needed as we move 
forward. This is a work in progress. HAVA is proving to be a 
solid foundation upon which we can institute further electoral 
improvements. HAVA made it easier for voters to cast a vote and 
harder for people to knowingly commit fraud.
    But despite all of the overall success of HAVA, the 2004 
elections revealed several high-profile failures in the system 
that resulted in a few areas we need to address. This committee 
held an oversight hearing in Ohio, where we listened to 
testimony and read numerous reports of voters waiting in line 
for more than 10 hours to cast a ballot and over 100,000 
provisional ballots going uncounted. This situation should not 
happen in the 21st century. Airlines and TSA move millions of 
passengers a day from the curb to their final destination with 
fewer problems.
    Mr. Chairman, there is also a report from the Rolling Stone 
that I would like to ask to be included in the record by 
unanimous consent.
    The Chairman. Without objection, so ordered.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T8926A.001
    
    [GRAPHIC] [TIFF OMITTED] T8926A.002
    
    [GRAPHIC] [TIFF OMITTED] T8926A.003
    
    [GRAPHIC] [TIFF OMITTED] T8926A.004
    
    [GRAPHIC] [TIFF OMITTED] T8926A.005
    
    [GRAPHIC] [TIFF OMITTED] T8926A.006
    
    [GRAPHIC] [TIFF OMITTED] T8926A.007
    
    [GRAPHIC] [TIFF OMITTED] T8926A.008
    
    [GRAPHIC] [TIFF OMITTED] T8926A.009
    
    [GRAPHIC] [TIFF OMITTED] T8926A.010
    
    [GRAPHIC] [TIFF OMITTED] T8926A.011
    
    [GRAPHIC] [TIFF OMITTED] T8926A.012
    
    [GRAPHIC] [TIFF OMITTED] T8926A.013
    
    [GRAPHIC] [TIFF OMITTED] T8926A.014
    
    [GRAPHIC] [TIFF OMITTED] T8926A.015
    
    [GRAPHIC] [TIFF OMITTED] T8926A.016
    
    [GRAPHIC] [TIFF OMITTED] T8926A.017
    
    [GRAPHIC] [TIFF OMITTED] T8926A.018
    
    [GRAPHIC] [TIFF OMITTED] T8926A.019
    
    [GRAPHIC] [TIFF OMITTED] T8926A.020
    
    [GRAPHIC] [TIFF OMITTED] T8926A.021
    
    [GRAPHIC] [TIFF OMITTED] T8926A.022
    
    [GRAPHIC] [TIFF OMITTED] T8926A.023
    
    [GRAPHIC] [TIFF OMITTED] T8926A.024
    
    [GRAPHIC] [TIFF OMITTED] T8926A.025
    
    [GRAPHIC] [TIFF OMITTED] T8926A.026
    
    [GRAPHIC] [TIFF OMITTED] T8926A.027
    
    [GRAPHIC] [TIFF OMITTED] T8926A.028
    
    [GRAPHIC] [TIFF OMITTED] T8926A.029
    
    [GRAPHIC] [TIFF OMITTED] T8926A.030
    
    [GRAPHIC] [TIFF OMITTED] T8926A.031
    
    [GRAPHIC] [TIFF OMITTED] T8926A.032
    
    [GRAPHIC] [TIFF OMITTED] T8926A.033
    
    [GRAPHIC] [TIFF OMITTED] T8926A.034
    
    [GRAPHIC] [TIFF OMITTED] T8926A.035
    
    Ms. Millender-McDonald. Thank you, Mr. Chairman.
    Given some of the issues in this report, I am also 
interested in hearing how this EAC is addressing the needs for 
voters to cast ballots securely and privately?
    Furthermore, last week marked the start of the 2006 
hurricane season, which reports indicate would possibly be even 
worse than the devastation last year. The residents of the Gulf 
Coast States witnessed entire towns and cities destroyed in the 
face of Hurricanes Katrina and Rita. In some locations these 
hurricanes wiped out the entire infrastructure necessary for 
the citizens to vote. It may be years before the Gulf States 
start to resemble the great area they were before these storms.
    Just a few days ago, several of the Gulf Coast States held 
Federal primaries, and I understand that some of our 
Commissioners before us today witnessed these primaries 
firsthand. I am very interested in hearing the Commissioners' 
assessment of how States are handling these election 
difficulties in the absence of an election infrastructure.
    I am also greatly concerned that we have forgotten the 
victims of the Hurricanes Katrina and Rita. I will continue to 
fight for my legislation, H.R. 4140, the Ensuring Ballot Access 
to Hurricanes Katrina and Rita Victims Act of 2005, which would 
authorize the EAC to provide up to $50 million in grants to the 
States affected by hurricanes.
    These grants are not, however, a blank check. States would 
have to submit detailed plans to EAC in order to receive 
funding, reestablish voter registration lists, reconstruct 
destroyed polling stations, make polling stations fully 
accessible to those with disabilities, and restore and replace 
supplies, materials, and equipment used in the administration 
of elections.
    Companion legislation introduced by Senator Trent Lott and 
Chris Dodd passed in the Senate by voice vote on February 9th 
of this year, and I am still waiting for the House to step up 
to the plate and do the same.
    As you recall, January 1st of 2006 marked the deadline for 
States to comply with two additional requirements of HAVA. 
First, each polling station must have at least one machine that 
is fully accessible for individuals with disabilities. States 
may satisfy this obligation with the use of a direct recording 
electronic voting system, DRE.
    DRE machines were looked at as the great panacea to the 
problems associated with the 2000 elections, but much concern 
continues to brew since the signing of HAVA. How is the EAC 
handling this situation? I am very disturbed by the news 
reports surrounding DRE machines and recent attempts to expand 
voting identification requirements. Are you presently working 
on reports on these topics, and when would you inform the 
Congress of any findings?
    The other requirement that went into effect requires each 
State's chief election official to implement in a uniform and 
nondiscriminatory manner a single uniform, interactive, 
official centralized system to handle statewide computerized 
voting registration list. This list is to be defined, 
maintained and administered at the State level, which will 
contain the name and registration information of every legally 
registered voter in the State and assign a unique identifier to 
each legally registered voter in the State.
    I believe that if implemented correctly, this mechanism can 
be the key to cutting down on voter fraud. However, many States 
received waivers in 2004 for both of these important 
requirements. Are all States fully compliant with these 
mandates now; and if not, what is EAC doing to make sure the 
States are fully ready for the November elections?
    Lastly, I believe many of the problems associated with the 
2004 election could be tracked back to poor poll worker 
training and recruitment. For the most part volunteers run our 
elections for many long hours and on very little pay. So what 
are you doing to provide solutions to this major problem?
    We can and must work to address these problems, and I look 
forward to working with the Chairman and other Members to 
continue improving the voting process.
    I would like to place in the record a letter I wrote to the 
Committee on Appropriations requesting that they provide the 
remaining $800 million authorized by HAVA.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T8926A.036
    
    [GRAPHIC] [TIFF OMITTED] T8926A.037
    
    Ms. Millender-McDonald. I will persist in my efforts to 
seek full funding for EAC to continue its critical work of 
improving the electoral process. Even if one voter is 
disenfranchised, that is one voter too many.
    Mr. Chairman, I thank you for convening this very important 
hearing and look forward to hearing the testimony from this 
very esteemed Commission and their answers to the questions 
that I have raised. Thank you.
    The Chairman. I thank you for your statement.
    [The statement of Ms. Millender-McDonald follows:]
    [GRAPHIC] [TIFF OMITTED] T8926A.038
    
    [GRAPHIC] [TIFF OMITTED] T8926A.039
    
    The Chairman. We have been joined by someone who could 
rightfully be called the father of HAVA, Congressman Ney, the 
gentleman from Ohio.
    Mr. Ney. Thank you.
    Sometimes children are bad and sometimes they aren't. I 
think this child has been good. It was a pleasure actually to 
work with Steny Hoyer when the hanging chad and dimpled and 
pregnant chad came up in Florida.
    I think at first people thought the bill would just be 
about that, but it went way beyond that. We got a college 
program and a high school program because our Ranking Member 
had mentioned about voter education, and actually that is going 
to be a great way to help with this.
    Then it went--of course, the bill came from the Senate with 
Senator Dodd and Senator McConnell and Senator Bond as the main 
principals. Some, I think, very thoughtful provisions were 
added, and the rest is history.
    I think the Congress voting for this also can be very 
proud. For the first time in many people's lives, the blind are 
able to vote in privacy. And I know I have had a lot of calls 
from people that have said that they were able to cast their 
first vote.
    But HAVA was a complicated bill. It took a long time to do. 
One of the main components of it is the EAC. Of course, that is 
why you are here, and I thank the Chairman and Ranking Member 
for having the hearing today.
    I did want to mention, I was a little bit late in coming, 
but we did have a hearing in Columbus, Ohio, and Wisconsin. I 
thought the hearing in Columbus was a very good hearing because 
it showed a lot about the Federal end of it with the EAC, and 
we never attempted to federalize it, but it also showed how 
HAVA was going to be carried out within a State and other 
States that we looked at.
    So I am not going to take a lot of time to read a 
statement; I will put it in without objection, Mr. Chairman, 
for the record, because I want to hear what you have to say, 
and also in the area of the security, because there is a lack 
of consensus among election officials, very interested in 
provisional voting. Provisional voting that we all agreed in 
the House and Senate on I think is a very good way to stop 
disenfranchisement of people as they go to vote.
    We had a couple of cases, in fact, in my district where 
somebody went in to vote, and they said, you already voted; and 
the young man insisted, I didn't; and they had a provisional 
ballot, ended up his vote was counted. Now, had that not 
happened with HAVA and the provisional voting, that young man 
might have been turned away from the polls. This was a huge 
thing.
    There is a lot of issues, as you know. The other thing that 
is frustrating, I worked with Congressman Hoyer, the Chairman 
and Ranking Member and Speaker--or Leader Pelosi. If we can get 
that remaining amount of money--we funded about 3 billion, 
which is great, but we need to get that remaining amount of 
money into this bill.
    With that, I appreciate all of you being here, appreciate 
the job. You have made history as the first EAC, the first 
elections commission in the country, and so I credit you for 
getting up and running as fast as you did, and I know without 
going into a lot of details the money didn't immediately flow 
for you. It wasn't made the easiest maybe by the Congress. So 
thank you.
    The Chairman. Thank you, Mr. Ney.
    Any other opening statements will be entered into the 
record without objections. So ordered.
    We will now commence with testimony from our panel of 
witnesses; first, Paul S. DeGregorio, Chairman of the Election 
Assistance Commission. The other names will not be in order of 
testimony, but some other order: Ray Martinez, III, Vice 
Chairman; Donetta L. Davidson, Commissioner of the Election 
Assistance Commission; and Gracia M. Hillman, Commissioner of 
the Election Assistance Commission.
    We will first turn to Mr. DeGregorio for his testimony. You 
are recognized for 5 minutes. I assume you are experienced 
enough to know our clock system. The green means go, go, go. 
The yellow means get ready to stop. The red means stop. Then 
the trap door opens if you go beyond that.
    So with that, we recognize you, Mr. DeGregorio.

STATEMENT OF PAUL S. DeGREGORIO, CHAIRMAN, ELECTION ASSISTANCE 
                           COMMISSION

    Mr. DeGregorio. Good morning, Mr. Chairman, Ms. Ranking 
Member and Congressman Ney. The U.S. Election Assistance 
Commission is pleased to be here to discuss the broad changes 
in the election administration process that have been 
effectuated by the Help America Vote Act of 2002, and, more 
specifically, the EAC's role in supporting State and local 
governments to implement HAVA reforms.
    In our testimony we will review the new election 
administration requirements imposed by HAVA, the efforts of 
election administrators nationwide to implement those changes, 
and what Americans can expect from the 2006 Federal elections.
    Although the EAC is amongst the smallest of independent 
Federal Commissions, it may have the greatest impact on the 
largest number of persons. The changes that the Commission has 
helped State and local governments make will affect every voter 
in this country. We appreciate the vested interest that this 
Committee has in our work and the support we have received.
    2006 is a year of changes, challenges and progress in 
election reform and HAVA implementation. An estimated one in 
three voters will use new voting devices this year. Just this 
past Tuesday, eight States conducted their Federal primary 
elections, and in most of those States new voting devices were 
used for the first time by millions of voters.
    In all of the 2006 primaries and in the November general 
election to come, we know that because of HAVA, these new 
voting systems will empower voters to verify choices, change 
their selection, and be notified in the event of an overvote.
    This year many Americans with disabilities will vote 
privately and independently for the very first time. I have 
witnessed this on many occasions, and it is truly an 
inspirational event.
    This year many States are using a statewide voter 
registration database for the first time as required by HAVA. 
These lists will result in cleaner voter rolls, facilitating 
the prevention of voter fraud, and reducing the need for 
provisional balloting.
    These are just two concrete examples of the progress being 
made towards upgrading the nation's voting systems and how some 
of the 3.1 billion in HAVA dollars has been spent.
    Mr. Chairman, the United States has experienced more 
election administration reform in the past 5 years than at any 
period in its history. We see new technology, improved 
procedures and greater access to the polls. However, the road 
to implement reform has not always been easy. All this change 
has meant great challenges for election officials and voter 
advocates.
    The task of recruiting, training and retaining poll workers 
and educating voters on new systems has never been harder, but 
we have learned a lot over the past few years. We know that 
most residual problems are the result of human error, and, 
fortunately, these problems can be mitigated through improved 
management practices.
    As you will learn from my colleagues, the EAC is working 
hard to assist State and local officials. Not only can we offer 
our own sound practice guidelines, but we are sharing important 
data collected during HAVA-mandated research through our 
clearinghouse function.
    All of these efforts will help State and local officials 
nationwide improve election administration no matter how unique 
their situation.
    I am particularly proud of the important role the EAC has 
played in helping the States whose election processes were 
severely disrupted by Hurricanes Katrina and Rita. Soon after 
the extent of the damage was known, we brought State and local 
officials in the Gulf Region together with Federal authorities 
and fellow local election officials who experienced similar 
disasters. These meetings proved to be very beneficial, and we 
are anticipating a successful 2006 general election in the 
region.
    I believe the EAC has proven the significant part it can 
play in helping State and local election officials respond to 
various challenges.
    Mr. Chairman, I was pleased to report that the Voluntary 
Voting System Guidelines were issued in December 2005 within 
the HAVA-mandated 9-month deadline. They provide for greater 
security and usability of election systems. We are already 
working with the National Institute of Standards and Technology 
on future iterations.
    In addition to our continuing advisory role to local 
election officials, the EAC is focused on two important 
projects in 2006. Our top priority is to establish a thorough, 
rigorous and transparent voting system certification program, 
and we are working closely with NIST to do so.
    Recognizing that the $3.1 billion in HAVA funds are already 
distributed and need to be accounted for, our Inspector General 
has an active audit and monitoring program underway.
    Finally, Mr. Chairman, it has been an honor to serve on 
this Commission with these three distinguished Americans. They 
will now share with you more information on the work of the 
EAC, and I will turn to Commissioner Hillman for further 
remarks.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    [The statement of Mr. DeGregorio follows:]
    [GRAPHIC] [TIFF OMITTED] T8926A.040
    
    [GRAPHIC] [TIFF OMITTED] T8926A.041
    
    [GRAPHIC] [TIFF OMITTED] T8926A.042
    
    [GRAPHIC] [TIFF OMITTED] T8926A.043
    
    [GRAPHIC] [TIFF OMITTED] T8926A.044
    
    [GRAPHIC] [TIFF OMITTED] T8926A.045
    
    [GRAPHIC] [TIFF OMITTED] T8926A.046
    
    [GRAPHIC] [TIFF OMITTED] T8926A.047
    
    [GRAPHIC] [TIFF OMITTED] T8926A.048
    
    [GRAPHIC] [TIFF OMITTED] T8926A.049
    
    [GRAPHIC] [TIFF OMITTED] T8926A.050
    
    [GRAPHIC] [TIFF OMITTED] T8926A.051
    
    [GRAPHIC] [TIFF OMITTED] T8926A.052
    
    [GRAPHIC] [TIFF OMITTED] T8926A.053
    
    [GRAPHIC] [TIFF OMITTED] T8926A.054
    
    The Chairman. I am pleased to recognize Commissioner 
Hillman.

    STATEMENT OF GRACIA M. HILLMAN, COMMISSIONER, ELECTION 
                     ASSISTANCE COMMISSION

    Ms. Hillman. Thank you and good morning, Mr. Chairman.
    The Chairman. Is your microphone on?
    Ms. Hillman. Thank you.
    Thank you and good morning, Mr. Chairman, and Madam Ranking 
Member and Mr. Ney. My name is Gracia Hillman. I have had the 
privilege of serving on the Election Assistance Commission 
since it was first appointed in December 2003. It is a pleasure 
to appear before you this morning.
    Under section 202 of the Help America Vote Act, EAC is 
assigned the duty of serving as a national clearinghouse. We 
provide information on a number of issues concerning the 
administration of Federal elections. To that end, EAC has 
undertaken several activities to fulfill this responsibility.
    We have set up the EAC Website to be a national resource. 
Our Website is easily accessible at www.EAC.gov. It serves as a 
tool for State and local election administrators, academics, 
advocates, practitioners, and voters in search of information 
about election administration.
    Additionally, EAC.gov contains information about the 
structure, work and decisions of this Commission. Our Website 
will soon contain a legal resources clearinghouse. Election 
administrators tell us that this will be a valuable resource.
    We are constructing a searchable database that will contain 
statutes, rules, regulations and court decisions about election 
administration.
    As you know, Mr. Chairman, HAVA directs EAC to undertake a 
number of studies and to conduct research. Through this work we 
produce data, best practices, guidance and guidelines for use 
by the States and local jurisdictions.
    As you might imagine, our work is guided in large part by 
HAVA deadlines and Federal election cycles. EAC has limited 
resources, but we maximize them by prioritizing our work. We 
also strive to provide information that will be timely to the 
needs of election administrators.
    Our first priorities over the past 18 months have been to 
study topics that are most relevant to HAVA timelines. The 
issues we study are covered primarily in HAVA titles 2 and 3. 
Current study topics are covered on pages 12 and 13 of our 
written testimony and include the following issues: improved 
data collection to help quantify voter registration and 
turnout, catalog the types of voting systems that are being 
used, and illuminate the many other complex aspects of 
administering elections.
    We are examining effective designs for ballots and polling 
place signage to help provide clear information for the voter. 
We are researching public access portals to identify effective 
and efficient ways for election administrators to disseminate 
critical information to voters, and we are compiling best 
practices for the recruitment and training of poll workers, 
including college students.
    Communities throughout America depend on a volunteer poll 
worker to be its champion of democracy on election day. The 
recruitment and training of poll workers are costly and time-
consuming activities, but critically important to help America 
vote.
    EAC is fortunate to have a wealth of expertise available to 
help inform our research and studies. We work with the EAC 
board of advisors to prioritize the order of study topics. The 
early stages of our research are informed by working groups. 
These groups include State and local election officials; 
academics; other experts who study, follow and advocate 
election issues; and, of course, our Federal agency partners.
    The EAC advisory and standards boards provide critical 
review of our documents as they are being developed, and our 
work is further informed by expert testimony at our meetings 
and hearings. Also informative are the hundreds of comments 
that we receive from the public.
    We have a highly talented, but very small staff; therefore, 
we frequently use outside consultants to conduct the studies 
through the appropriate processes as regulated by the Federal 
Government. Our reports are issued in a variety of formats, 
including hard copy and digital.
    Our Nation's election administrators also have very small 
budgets and staff in comparison to the enormity of their tasks 
and responsibilities. They simply do not have the resources to 
research and study their own practices and procedures. Congress 
wisely recognized under HAVA that information is a necessary 
tool for effective administration.
    I will be pleased to answer your questions and provide any 
additional information you may need, and I now turn to 
Commissioner Davidson to discuss our work to improve voting 
systems.
    The Chairman. Thank you for your testimony, and I am 
pleased to recognize Commissioner Davidson.

   STATEMENT OF DONETTA L. DAVIDSON, COMMISSIONER, ELECTION 
                     ASSISTANCE COMMISSION

    Ms. Davidson. Thank you. Good morning, Mr. Chair, Ranking 
Member, and Congressman Ney. My name is Donetta Davidson, and 
it is an honor to serve as a member of the EAC. I was appointed 
in August of 2005.
    As a former secretary of state, I can tell you firsthand 
how important it is to have credible guidelines when purchasing 
a voting system. My State, like many other States, relied on 
this certification program.
    Serving as a TDGC member, which is the Technical 
Development Guidelines Committee which directs NIST in 
developing the Voluntary Voting System Guidelines, really was 
an add in my career before I became a member.
    The guidelines were adopted in December of 2005. The public 
involvement in this was a priority to the EAC. We had 3 
meetings throughout the United States, received more than 6,000 
comments in a 90-day period, and NIST worked with us side by 
side on reviewing all of those comments.
    The guidelines must always keep up with technology. The 
first priority was to focus on security, making sure that the 
voting systems are accurate and reliable. Examples include 
expanding the requirements of results transmitted at night 
after the election. We added wireless requirements, and also 
added VVPAT requirements for States that require it.
    But that is not enough. We also took into consideration the 
needs of all voters and what they experienced when they used 
the voting system. For the first time we included a usability 
section in the standards which addresses the needs of the 
disabled community. For instance, the vendors will have to 
conduct a usability test. They establish a minimum font size. 
There is also a navigation control that allows a voter to move 
forward to a race or back up to a previous or past race before 
they cast their ballot. It increased accessibility requirements 
from 29 to 120.
    Future iterations are being developed in conjunction with 
NIST. We are addressing security, obviously, in more depth, 
wireless technology, identifying more forms of independent 
verification and usability benchmarks and test protocols for 
the labs.
    The voting system certification program is our top priority 
for 2006. NVLAP, which is the National Voluntary Laboratory 
Accreditation Program, is already performing test lab 
evaluations. Our program will be rigorous, thorough, and it 
will be transparent to the public. The quality control will be 
added that has never been there in place before. Field 
monitoring, and also the vendors will have to register.
    The Nation is looking to us for leadership, and we will 
provide it. I thank you very much, and I would be more than 
welcome to answer any questions you may have. And now I would 
like to turn it over to our Vice Chairman Mr. Martinez.
    The Chairman. Thank you for your comments. I will recognize 
Mr. Martinez.

    STATEMENT OF RAY MARTINEZ, III, VICE CHAIRMAN, ELECTION 
                     ASSISTANCE COMMISSION

    Mr. Martinez. Good morning, Mr. Chairman, Ranking Member 
Millender-McDonald, and members of this committee. I am Ray 
Martinez. I currently serve as Vice Chair of the EAC.
    Let me briefly address two additional areas where the EAC 
has made significant progress in implementing HAVA. First is 
through the issuance of voluntary guidance. As you know, HAVA 
contains several technology and administration requirements 
that must be implemented by every State. These requirements 
include, among other things, voting system standards for all 
touch-screen and optical-scan voting systems, a requirement for 
at least one accessible voting system per polling place which 
would allow persons with disabilities the opportunity to vote 
privately and independently, the implementation of provisional 
voting, and development of statewide voter registration bases. 
Where any ambiguity exists, the EAC is mandated to issue 
voluntary guidance to assist States in meeting these important 
requirements.
    The EAC has met this responsibility, Mr. Chairman, in the 
following ways. In July 2005, the EAC issued its first set of 
voluntary guidance to assist States in developing their 
statewide voter registration databases. This important 
requirement, designed by Congress with the dual goal of 
improving accuracy of voting lists while also reducing the 
possibility of fraud, has been a particularly difficult 
requirement for many States to implement.
    Some States such as Michigan and Kentucky have served as 
national models for such a system, and yet most States had no 
such database in place when HAVA was passed. So the EAC has 
worked diligently by seeking broad public input to provide 
interpretative guidance as well as technical assistance through 
an ongoing partnership with the National Academy of Science.
    Additionally, the EAC has issued other voluntarily 
interpretative opinions to assist States in meeting their 
obligations, including opinions on the use of lever machines, 
matters involving the conditioning of provisional ballots to 
voter identification requirements, and an important analysis 
regarding the differences between the voluntary voting system 
standards promulgated by the FEC in early 2002 and the 
standards that are mandated by the plain language of HAVA.
    Second is our efforts to assist States. While HAVA requires 
the distribution of unprecedented Federal funds to all States, 
these funds are to be used not only to improve voting system 
technology, but also to broadly address the people aspect of 
election administration.
    In order to facilitate this, the EAC is developing 
voluntary management guidelines referred to earlier by our 
Chairman which will offer a vast array of information and best 
practices dealing with nearly every phase of election 
administration, including poll worker training and voter 
education; protocols on security of electronic voting systems; 
and prudent practices for procurement, setup and storage of 
voting systems.
    Finally, since HAVA represents both an unprecedented and 
significant financial commitment by Congress to improve the 
administration of Federal elections, it is imperative that the 
EAC conduct its due diligence in assisting States to use these 
important new Federal funds for their intended purposes.
    We are doing so by working on a daily basis with State and 
local jurisdictions to answer their numerous questions on the 
use of HAVA funds, and, when necessary, issuing advisories to 
inform all jurisdictions of our decisions.
    Additionally, the EAC staff has traveled extensively to 
various conferences throughout the country to conduct training 
and information sessions in order to directly inform election 
administrators and answer their questions.
    Moreover, now that all appropriate HAVA funds have been 
fully distributed by the EAC, we have implemented an audit 
program through the establishment of an Office of Inspector 
General at the EAC. Since the establishment of this office, Mr. 
Chairman, the EAC's inspector general has moved assertively to 
begin regular oversight activities based upon objective 
criteria such as the expenditure of HAVA funds.
    Additionally, when allegations were raised in 2004 about 
the possible inappropriate use and mismanagement of HAVA funds 
by now a former secretary of state, the EAC initiated a special 
audit that has resulted in a determination of repayment of some 
$3 million.
    Clearly we have come a long way in a short period of time. 
As the process of election administration becomes more complex 
and thus more challenging upon State and local administrators, 
election administrators, it is all the more imperative that the 
EAC diligently stick to the important task it was assigned in 
HAVA.
    We are doing just that, Mr. Chairman, and, in my view, with 
each passing month and year, the EAC is becoming an important 
and an increasingly valued partner in the process of election 
administration.
    With that, I know that we are all prepared to answer your 
specific questions, Mr. Chairman. Thank you.
    The Chairman. I thank all the Commissioners for their 
excellent testimony. It is a very good overview, and we 
appreciate that.
    I will begin the questioning. First of all, I would like 
to, since I am the one who was involved in writing the 
technical part of it, and I happen to be a scientist--I am very 
interested, Commissioner Davidson, you mentioned the work with 
NIST. I assume NIST was very cooperative in this; is that 
correct? Were they helpful?
    Ms. Davidson. Absolutely, Mr. Chairman. They were very 
helpful and continue to be very helpful in our new process. 
Even in the certification of our voting labs that we are going 
to have, they have been very helpful in that.
    The Chairman. Can you explain, with the certification 
process that has been set up--and I agree with you, it has been 
a good one. We just read in the papers last week about Diebold 
having a great vulnerability, and I knew there would be 
vulnerabilities. That is not a crime to have a vulnerability. 
But to have such an obvious and simple one was surprising. Did 
that sneak through, or was that particular model certified at 
this point?
    Ms. Davidson. The equipment was certified in the past by 
NASED. Our program, we feel, will be far more vigorous. Whether 
something like that would have been caught, I am not certain, 
to be really honest with you, and that is very important to me.
    One of the things we must remember, when that was found, 
the individual was let into the office, and they had access to 
the software and everything to be able to do that. It wasn't 
somebody from the outside being able to go in, so it is a 
little bit different.
    There has got to be security from the front end of the 
system all the way through. The systems need to be secure, but 
operation for the counties and what they do within their 
election setup and the whole process must be secure as well.
    The Chairman. Let me ask also about the human factors, 
which I pushed very hard to have that included as part of the 
requirements. Are you satisfied that the human factors were 
dealt with appropriately? Let me just explain my concern.
    For years I have heard that we just have to train the poll 
workers better, or we just have to train the voters better, and 
I have always said that is just utter nonsense. This is a task 
that they do, in the case of the voters, a couple times a year; 
in the case of the poll workers, maybe four times a year. You 
can't expect people to remember that much from one session to 
the other.
    I felt the equipment and the procedures should all be 
designed in such a way to take account of that and take care of 
all the human factors so no one has to be trained. It is so 
elementary that anyone can do it without error.
    Has that goal been achieved at all in this whole 
certification process and the design and testing and so forth?
    Ms. Davidson. It is being worked on. We increased it from 
29 to 120. We feel like we have made a very good start at that. 
But right now what they have done to meet the VVPAT, for 
instance, they have attached that paper printer on the side of 
the equipment, and that is not usable to the judges. I will be 
very honest with you, the judges are having issues with that 
and having trouble being able to get it attached and working 
properly. That is one of the issues that we really see. So in 
our next iteration that will be one area that we are really 
looking into. We improved human factors, but not enough.
    The Chairman. Okay. I am pleased to hear your comment, 
because that was my impression. If you are saying everything 
was okay, I would be worried.
    Ms. Davidson. It is not okay.
    The Chairman. Thank you for your honesty in that.
    Similarly, the question of fraud. It has amazed me since I 
got to the Congress and came to this Committee and have dealt 
with contested case elections and also the elections across the 
country, what has amazed me is both the extent of fraud, and, 
second, the opportunities that are available for fraud.
    Do you think that through this whole certification process, 
the whole complete review you have done, that we have 
minimized--I know we can't eliminate it at this point, but have 
we minimized fraud opportunities? Anyone may answer that.
    Mr. DeGregorio. Mr. Chairman, I think that the 
implementation of the statewide voter registration database 
from the part of giving people opportunities for fraud will be 
helpful to eliminate duplicate names and opportunities that 
people have had to commit fraud.
    There are certain other areas that I think will be helpful 
that the States have taken themselves to require other 
requirements, and also in their own way that they look at this 
whole process to make sure that not just the voter registration 
process is one that is secure, but that the voting devices 
can't be tampered with.
    In the voting system itself, when you take it as a whole, 
there are different opportunities where people can come in and 
commit some kind of fraud against the system, but I think it is 
a process that has to be looked at in total, and I think there 
are steps being taken, but clearly there is more work to be 
done.
    The Chairman. Commissioner Hillman.
    Ms. Hillman. I would just add that the issue of voter fraud 
and voter intimidation are among the items that Congress has 
asked the Election Assistance Commission to look into, and we 
have begun that. One of the first tasks is to arrive at a 
common understanding and definition when people talk about 
voter fraud. There is manipulation of equipment, which may not 
be something that the voters have access to. There is the issue 
of perhaps registering to vote if one is not qualified to do 
so.
    There aren't a lot of reports that quantify this, even when 
you look at the instances of situations that have been reported 
by election administrators to prosecuting officials. Officials 
believe it is very difficult to prosecute.
    So we will be wrapping our arms around this to try to 
identify the points where there are weaknesses, look at the 
things that HAVA already provides to take care of those, then 
look at things that may need to be done.
    The Chairman. Any other comments?
    Mr. Martinez. Mr. Chairman, if I could. I would echo, 
obviously, the things that my colleagues have put forth, but I 
would also say that HAVA represents that delicate balance of 
trying to achieve the twin goals of both minimizing fraud, Mr. 
Chairman, and also improving access to the polls.
    I think the broad-brush answer, if you will, to your 
important question is that as we diligently make efforts as we 
have outlined to implement the important provisions of HAVA, 
all the requirements, bells and whistles for voting systems, 
voter information requirements, statewide databases, and the 
voter ID requirements, all of that was delicately crafted by 
Congressman Ney and his colleagues, who are indeed regarded as 
the authors of HAVA, and it was delicately balanced with the 
twin goals in mind.
    I think as we stick to the implementation of this law, we 
are going to achieve, I hope, that particular goal.
    The Chairman. My time has expired. Let me just say one area 
I am still very worried about because of the lack of expertise 
of average Americans in dealing with computers, it is 
remarkably easy to hack into a computer and change things. I 
still want to keep an eye on the safeguards that are being 
developed to prevent that from happening.
    My time has expired. I am pleased to recognize the Ranking 
Member, the gentlelady from California, for her questions.
    Ms. Millender-McDonald. Thank you so much, Mr. Chairman. 
Let me echo the visionary eye and tenacity of Mr. Ney and Mr. 
Hoyer in bringing about HAVA. It is just an incredible piece of 
legislation. We have been able to build on it and improve upon 
it, so we are so grateful to have you here this morning and the 
work that the two of you have done in bringing about HAVA.
    This outstanding panel today, as I agree with you, Mr. 
Chairman, is superb in their testimony, and you are not just 
valuable, you are invaluable. You have said some things that 
are really just more encouraging than what has been said in the 
past, and you have brought in some concepts that I just want 
you to elaborate on.
    First, Mr. Chairman, you talked about the eight States that 
had primaries this past Tuesday, and, of course, California was 
one of those. I was quite concerned about the voter turnout, it 
was so dismal, and while there are some things you can't do--
but I was wondering if you have thought about anything that we 
can do to improve upon voter participation and voter turnout.
    You also spoke about States that are in compliance with the 
building of the statewide database and registered lists. Can 
you tell me those States that are not in compliance at this 
point?
    Mr. DeGregorio. Thank you, Congresswoman Millender-
McDonald.
    First of all, on the turnout, I have been in the election 
administration business for 20 years. I served as Director of 
Elections in St. Louis County, Missouri, for 8 years where we 
had municipal elections, and the turnout was 15 to 20 percent 
on average, and that is a dismal participation rate. I know 
that in the State of California, in your election you had 
Tuesday, I spoke with Connie McCormack yesterday, and she 
lamented the fact that the turnout was so low.
    I think from the EAC's viewpoint we certainly have always 
talked about encouraging Americans to participate in the 
election process, and what we do every day is to make sure that 
voters have trust and confidence in the election process, so 
that is not a barrier or reason for them not to participate.
    Election turnouts depend many times on competition of the 
political parties and the candidates involved, but we try to do 
what we can, and certainly we talk to election officials around 
the country to encourage voter education and other methods to 
encourage voters to participate.
    It is a continuing problem in the country. We recognize 
that.
    I am sorry, your other question?
    Ms. Millender-McDonald. Any States that are not in 
compliance?
    Mr. DeGregorio. First of all, let me just state for the 
record that the Department of Justice has jurisdiction to sue 
States or to bring them in compliance through legal action. 
With that said, as you indicated, most States are in compliance 
with statewide databases. We recognize that there are some 
States that are not. New York State was sued by the Department 
of Justice recently because they were not in compliance. We 
know other States are working very hard to become compliment. 
Illinois, for one, is not there yet, but will be, they 
indicate, by the November election.
    This has been a difficult process for many States that 
waited to get this done, but we recognize that it is an 
important process, and we have provided guidance and guidelines 
to those States to help them get that process completed.
    Ms. Millender-McDonald. Excellent. The Chairman has 
already, I think, exhausted the information about the voter 
certification program, but that is another good concept and 
good provision that you spoke about this morning.
    Ms. Hillman, you spoke about something that is very dear to 
me. First of all, I think the Website, I think, is an 
incredibly good component to have, but within that construct 
you talked about bringing in this legal concept, and that is 
very good because when we were in Ohio, it seemed at the last 
minute they trumped Federal law to come in with some State law 
that just really did a topsy-turvy to some of the outcomes.
    Can you expound on your legal--the legal provisions there 
and how that will help us in bringing best practices for the 
public to access through the Website?
    Ms. Hillman. Certainly. Specifically on the legal resources 
clearinghouse, election officials across the country have told 
us that it requires a lot of time, and they don't have the 
research staff or sometimes even the size legal staff to look 
into the many issues they need to research before coming up 
with a recommendation on taking action. And so it is our intent 
to provide one-stop shopping, if you will, and it will include 
Federal and State court decisions so that people can then go 
and search a particular topic to see what decisions have 
already been rendered.
    If I might just take a moment on your voter turnout 
question, there are things within the Help America Vote Act 
that the Election Assistance Commission will look into with 
respect to innovative ideas to see would it make a difference 
if voting were on a different day other than the Tuesday date 
that has been selected; would weekend voting matter. Some 
States are looking at early voting, does early voting help, 
because people are sort of caught between not being able to get 
to a particular place within particular hours to vote.
    So there are some things that are going in the country to 
try to identify real barriers to participation.
    Ms. Millender-McDonald. That is excellent. While I see the 
light on, some of those other things that you all have 
mentioned--and welcome, Ms. Davidson, to the Commission. You 
are such an asset to us on this Commission. You and Mr. 
Martinez talked about voluntary guidance. I think that is just 
so extremely critical and very important.
    You talked about quality control. Those are great things 
that we put in place, that you are putting in place, that I 
think will only be a further asset in improving upon what you 
have already started.
    And then the audit program and the inspector general, I 
can't say enough, as I look at this red light before me here, 
but those are great innovative provisions and concepts that you 
have brought to bear that, to me, helps to improve HAVA and 
helps to improve, or helped to improve, voter participation, 
oversight, just all of those things that are so critical in 
providing the type of program and the type of voter 
participation that we want.
    So those are but a few things that I have heard that I am 
just very encouraged by and further will talk to you on my next 
round of questions.
    Thank you, Mr. Chairman.
    The Chairman. The gentlewoman's time has expired.
    We recognize the gentleman from Ohio, Mr. Ney.
    Mr. Ney. Thank you, Mr. Chairman.
    Whoever wants to answer these, not necessarily looking for 
an answer from each Commissioner, but I want to know what is 
the fiscal year 2007 request for financial and human resources?
    Mr. DeGregorio. I believe it is $17.1 million, of which I 
think our request was more than that, but recently the House 
Appropriations Committee just approved $17.1 million for our 
2007 fiscal year.
    Mr. Ney. Approps committee marked that up then?
    Mr. DeGregorio. Yes, they did.
    Mr. Ney. What do you need to successfully complete the 
mission that you have got within the legislation?
    Mr. DeGregorio. Our request and the approval includes a 
$2.2 million increase that will go to NIST. Right now in each 
of our fiscal years, the last 2 fiscal years, we have given 
$2.8 million to NIST to work on voluntary voting system 
guidelines. With the advent of our certification program and 
the next generation of these guidelines, we felt it was 
necessary to really focus on this technology and on the 
certification program because people are looking to us, we 
recognize, particularly the States are looking to us in the 
certification process to really make sure that it is 
transparent, make sure that it is a process that people can 
have confidence in. So, Mr. Ney, we are investing that for the 
next fiscal year.
    Ms. Davidson. Could I add something? I would like to add 
that one thing that we have just realized, and I don't know if 
I really should be bringing it up here or not, but it really 
surprised me from State government to Federal Government, I 
guess, I am in the learning process, but I realize that in our 
cap of 23 employees, that our college interns fall underneath 
that cap, and then also the other item that falls under it is 
personal services that we contract with, and so that has put a 
restraint on us. When you were asking what do we need, that to 
me would be some help; if there were some way or another to say 
FTE means full-time, and our full-time people would only fit 
into that 23. That would be a great deal of help, something in 
that area.
    Mr. Ney. Also really the interns shouldn't count in that 
because the other point I think you probably encounter, as we 
do here, interns come from different educational backgrounds, 
they add something because they have usually interest in 
wherever they are working, so that counts against you then, the 
interns do.
    Ms. Davidson. That is correct.
    Mr. Ney. Otherwise you would have to not have any interns, 
which is not good for the system, not good for the people 
trying to do that.
    Ms. Davidson. Surprising how those interns have gotten 
involved with elections and how much they want to give to the 
process in the future. They really have gotten involved in it.
    Mr. Ney. Where was that cap put on at?
    Mr. DeGregorio. I believe it was put on in the 
appropriations of the last 2 fiscal years. It went to 23 from 
19 from the year before, but it is put on in the appropriations 
process.
    Mr. Ney. Thank you.
    Ms. Hillman. Mr. Ney, if I could add a footnote on that and 
appreciate your interest. The EAC staff has been working with 
the staff of the Appropriations Committee to clarify what the 
intent was; did it mean 23 full-time permanent employees, or 
did it really mean the government definition of full-time 
equivalent? That is sort of the key to the dilemma.
    Mr. Ney. Thank you.
    Any comments on military voting? We went over and over this 
in the conference committee, and when we put the bill through, 
and then the Defense Department came forth and said we will 
have this test program, and that all fell apart. There has been 
some other ideas, I guess. Any comments on how you have been 
dealing with military voting?
    Mr. DeGregorio. Mr. Ney, we issued a report earlier this 
year on military and overseas voters, and the report indicated 
that election officials across the country are not collecting 
the data that is required under HAVA. They are supposed to tell 
us how many ballots have been sent to military and overseas 
voters and how many come back, but we are not getting that 
data. We feel that in 2006 we will.
    We are doing a study this year and looking at a pilot 
project in several places throughout the country that will be 
sending ballots electronically using the Internet to voters 
overseas who will return them by Postal Service or physical 
means, but at least one part of the equation will be using the 
Internet to send ballots. We think that will help our military 
men and women and overseas voters get their ballots back 
sooner.
    The Chairman. The gentleman's time has expired.
    I am pleased to recognize the gentleman from Florida, Mr. 
Mica
    Mr. Mica. A couple of quick questions. How much does all 
this cost? What is your total budget?
    Mr. DeGregorio. Our total budget request for 2007, fiscal 
year 2007, is $17 million. Right now our appropriation is just 
under $15 million for fiscal year 2006. So it is not a large 
budget, sir.
    Mr. Mica. Fifteen million. How many people do you employ?
    Mr. DeGregorio. He we have a cap of 23 FTEs right now.
    Mr. Mica. How much is spent for salaries, and how much is 
expended otherwise? What is your personnel budget? Twenty-three 
FTEs.
    Mr. DeGregorio. Right. Our personnel costs run around $3 
million; less than $3 million. Most of our funding is going--
2.8 million is going to NIST. We also have research projects--
    Mr. Mica. How much on research projects?
    Mr. DeGregorio. We spend approximately $2.3 million in 
research in fiscal year 2006.
    Mr. Mica. How do you decide who gets those? Competitive?
    Mr. DeGregorio. They are competitive bids, sir.
    Mr. Mica. Do you have a sunset provision? Do you have to 
come back every time for funding?
    Mr. DeGregorio. We come back every year for funding to the 
Appropriations Committee.
    Mr. Mica. They don't exist forever. It is just an annual 
authorization, or do they have an authorization?
    I want to figure out how we can get rid of you.
    The Chairman. Both good news and bad news. Basically, the 
authorization will expire, but just as with the FEC, it will 
continue with appropriations, and the Appropriations Committee 
will each year authorize for one year.
    Mr. Mica. They probably do some good things, but we have to 
look at areas where we can eliminate programs that may not be 
that useful.
    I have some concerns about noncitizen voting. I understand 
when Arizona passed a resolution that required citizens to 
produce proof of citizenship prior to registering to vote, when 
the Secretary of State requested reference to this requirement 
in instructions that accompany the Federal registration form, 
she was advised by your group that such a requirement would 
conflict with the National Voter Registration Act. Is that 
correct, and do we need to change the law?
    One of the most important things is making certain that 
people--that the voting process and integrity of the voting 
process is maintained, and also that the people who are voting 
are actually people who they say they are.
    Who wants to shoot?
    Mr. Martinez. I am happy to jump in. I am Ray Martinez, 
Vice Chair.
    You are correct, Arizona did ask for a change to the 
State's specific instructions on the national voter 
registration mail-in form. Our agency issued a letter to the 
State of Arizona probably a couple of months ago, and what we 
did is to consider the plain language of the National Voter 
Registration Act as passed by Congress back in 1993, which 
mandates very clearly, Congressman, that the national mail-in 
voter registration form has to be both used and accepted by 
every State in the country.
    So we looked first to the plain language of the statute and 
tried to make an informed determination as to Arizona's 
request. Where there was any ambiguity, we also looked to 
legislative history. And in looking at that history of the 
National Voter Registration Act, there also happened to have 
been back in 1993 when it was being passed by Congress a 
specific provision which would have allowed States to request 
documentary proof of citizenship at the point of registration. 
That particular amendment was stripped by the conference 
committee that put forth the final version of the National 
Voter Registration Act.
    Mr. Mica. So it is your opinion you would need to amend the 
National Voter Registration Act, I guess.
    Mr. Martinez. Our opinion is through the regulatory process 
we don't have the authority to grant Arizona's request; 
certainly the United States Congress does.
    Mr. Mica. Do you have any other way to suggest that we keep 
noncitizens from voting?
    Mr. Martinez. Obviously HAVA required, for example, a 
citizenship box to be placed in the national voter registration 
form. That was done by the FEC prior to the creation of this 
Commission. So there is now an explicit question on the 
registration form that says, are you a citizen.
    NVRA back in 1993 increased the penalties, Congressman, for 
providing false information and made stricter penalties for 
those who provide such false information. So I think we have to 
continue to look for ways----
    Mr. Mica. Finally, would your Commission recommend to us 
that we amend the NVRA so that we can make certain that 
presentation of proof of citizenship is required?
    Mr. Martinez. I think that our Commission----
    Mr. Mica. Are you all here?
    Mr. Martinez. Yes, sir, we are all here.
    Mr. Mica. Let us have a vote. How many in favor?
    Ms. Davidson. I would like to add something, if it would be 
okay.
    Mr. Mica. Go ahead. My time is up, I think, but you go 
ahead.
    Ms. Davidson. The one thing I think that we have noticed in 
our research is that in comparing our list, HAVA asked us to 
compare lists with the driver's license, but you can get a 
driver's license in many, many States and don't have to be a 
citizen. Also, when we tried to compare our list to the INS, we 
are not able to get ahold of that list.
    So that is one of the areas if you are looking at changing 
laws, that we look at that type of list, it would be very 
helpful, I would think.
    Mr. Mica. How about the vote? How do you all feel? Ready to 
vote to ask us to change the law?
    Ms. Davidson. I can tell you what we did in the past in 
Colorado. That is only one person. We act as a board, and we 
have not taken steps to tell people in any area how we feel, 
but I can tell you----
    Mr. Mica. I mean, the opinion of the board, should we 
change the law?
    Mr. Martinez. Congressman, I think that we have an 
obligation to look at every means and the least onerous means 
to be able to achieve the laudable objectives that certainly 
are trying to be achieved by the good people of Arizona. I 
cannot give you an opinion right now as to whether amending 
NVRA to allow this is the least onerous means to achieve 
citizenship verification, but speaking for myself, I will be 
happy to continue to look at this.
    Ms. Millender-McDonald. Will the gentleman yield?
    The Chairman. The gentleman's time has expired. Let me just 
insert that we are investigating the legislative possibilities 
on this matter.
    Mr. Mica. I would love to hear their opinion.
    Ms. Millender-McDonald. They can only recommend, Mr. Mica.
    Mr. Mica. I know.
    The Chairman. The Chair is pleased to recognize the 
gentlewoman from Michigan, Mrs. Miller.
    Mrs. Miller. Thank you, Mr. Chairman.
    I am sorry I was a little late. I didn't hear all your 
testimony. I was at another committee where they were marking 
up some legislation.
    I want to welcome you all to the committee. I have had a 
chance to talk to each of you, and particularly my former 
colleague Mrs. Davidson from Colorado, both of us former 
secretaries of state.
    I might pick up a little bit on what Representative Mica 
was talking about because it has been interesting following 
this issue in Arizona about citizenship, et cetera, and one of 
you commented about States that can give driver's licenses out 
to known illegal aliens.
    In Michigan, unfortunately, we are one of those States. 
There are actually 10 States in the Nation that continue to do 
that, give out driver's licenses to known illegal aliens.
    The reason I am bringing that up is because we have 
subsequently passed, the Federal Government has passed, now a 
piece of legislation called the Real ID Act, which will no 
longer allow States to do that. They have about a 3-year window 
to stop doing that.
    However, in Michigan, and sort of a roundabout way, I am 
not sure if you are familiar with this piece of legislation or 
you have any comment, we have a piece of legislation in our 
statehouse which would require a person's citizenship be 
disclosed on his or her driver's license.
    It all sort of falls into this Real ID Act, and our 
qualified voter file in Michigan is peopled off of our driver 
file, which is why I think there is a little bit of a hook here 
as well.
    Also, because in 2008, anybody crossing either border, the 
southern or northern border of our Nation, will be required to 
have a passport or some further documentation, more than your 
driver's license, to be able to cross. Do you have any 
comment--I don't know if you are familiar with that legislation 
in Michigan. What is happening in Arizona is not inherent to 
there, it is illegal immigration, and, whether or not on the 
driver's licenses or what have you, is happening all across the 
Nation. Perhaps I can ask for some comment on that.
    Mr. Martinez. I am happy to do so, Congresswoman. I am 
familiar with the legislation you are talking about, and I 
think one important nuance to put forth is it is just not the 
dilemma of distinguishing between illegal and legal individuals 
in this country, it is the nuance also of those hundreds of 
thousands or perhaps millions of individuals who are legally 
here in the country but not citizens.
    Right now HAVA requires that the Social Security 
Administration enter into a compact with all 50 States to 
verify the last four digits of that Social Security number that 
has been submitted in some cases by a registrant voter 
application. The problem is the database that the Social 
Security Administration has does not necessarily distinguish 
between those individuals here as legal residents under a work 
visa or something similar and those who are citizens. That is a 
different database that exists with what used to be called the 
INS, and I think it is called ICE now or something like that.
    So there are structural barriers for us to try to achieve, 
again, the laudable goals that Congressman Mica was talking 
about and that clearly some States in the country like Arizona 
are trying to achieve. I think it is incumbent upon us to look 
to overcome those barriers.
    Mrs. Miller. There are these various databases, and there 
has to be interoperability as we proceed with some of these 
things.
    I might also--maybe not so much a question as a comment, 
and I appreciate Representative Ney bringing this up earlier 
about some of the problems that you have run into with FTEs and 
having your interns and consultants, et cetera, all being 
grouped into the same barrel there, which is a little bit odd. 
Never did happen in State government; it is only here under the 
Dome that some of these things happen.
    I would respectfully suggest that perhaps this committee 
might want to write a letter to the appropriators expressing 
our consternation about that as a way to be a conduit that we 
have looked at it, had a hearing on it, and would ask them to 
take all these things into consideration as they proceed with 
that.
    A question I would have as well, and again I am sorry I was 
late, but with good staff work, Mr. Martinez mentioned Michigan 
was a national model in implementing HAVA. When I was the 
secretary of state there, we started this qualified voter file, 
is what we use in our nomenclature, and it was an interesting 
challenge because Michigan is somewhat unique in the Nation. 
Where normally it is the county clerk that has the voter 
registration list, in Michigan, as Chairman Ehlers knows, we 
have a very decentralized type of system. So it is every 
village clerk, city clerk, township clerk in the entire State, 
to the extent we had about 1,800 various voter registration 
files. Some were quite sophisticated, and some were kept 
literally in somebody's cigar box under their desk.
    Putting all of those into a computerized statewide database 
was part of an experience. It has worked out particularly well 
because I think we were able to actually eliminate as we sort 
of melded everything together about 600,000 names off of our 
file there, and I know other States are having similar kinds of 
experiences as they are doing this.
    I would say this. Our State is now hopefully successfully 
migrating to uniformity amongst election equipment, and all the 
other States are struggling with all that. A critical component 
of the partnership is with the vendors and the type of vendors 
out in the marketplace today and with the clerks and the people 
in the election industry are dealing with. I would say it is 
probably fair to say that this election year we are going to 
see more election equipment deployed, actually just deployed, 
than we have ever seen before, and that is a challenge for 
those involved in the elections industry.
    I think, as I have talked to a number of election officials 
in my district or around the Nation here, they are very 
concerned with the ability of voting system vendors to provide 
the types of support services that they are looking for.
    I would ask what EAC is doing to sort of bring this issue 
to light, sort of put the vendors on notice that everything is 
not going to be laid on the shoulders of the clerks, et cetera, 
if you have a vendor who is not providing adequate support 
service? I wonder if you have any comment in that area.
    Mr. DeGregorio. Thank you. Thank you for that.
    First, let me say Michigan was the leader in creating a 
statewide database, and I think the model for HAVA. I just want 
you to know that Chris Thomas from your State is now the chair 
of our advisory board.
    Mrs. Miller. Good choice.
    Mr. DeGregorio. But you are right, there have been 
problems, and we have certainly received correspondence from 
several State officials throughout the nation expressing their 
concern with vendors and their ability to serve and to fulfill 
contracts. Recognizing the relationships between vendors and 
the States or local governments, it is difficult for the EAC to 
get involved in their contractual relationships. However, at 
the same time, we recognize that this is a problem that we need 
to make sure we understand and try to do what we can to solve 
it. So we have had discussions with vendors about this topic.
    I have visited six States this year to observe the 
transition to new equipment and seen the vendors and their 
work; but, it is a concern for all of us because we recognize 
that while primaries are held week to week to week, on November 
7th the whole country is going to be dealing with an election, 
and these vendors may be spread thin, and we really don't want 
that to happen. So we are looking at this.
    Mrs. Miller. I know my time is up. I might respectfully 
suggest you might want to think about having hearings or 
something so you have a paper trail to put these vendors on 
notice that we are looking for them to provide the adequate 
support services for their products. It is a very important 
part of it all.
    The Chairman. The gentlewoman's time has expired, and I 
appreciate your suggestion about taking care of the intern 
problem. We will follow through on that.
    We will start a second round of questions. We are expecting 
votes soon. If it is just one vote, we will try to continue 
afterwards if there are still questions. If it is multiple 
votes, we may have to end at that point.
    By the way, just in terms of your budget, your questions on 
how large was your budget, I did a quick calculation and 
realize that your budget comes to 8 cents per eligible voter in 
this country. I think that puts it in perspective.
    Starting the second round of questions, according to a 
recent electionline.org report on the progress of election 
reform, as of January 1, 2006, nearly half the states had 
missed one or more of HAVA's deadlines. Do you agree with this 
assessment, and are more states coming into compliance as their 
primary elections approach? In other words, how are we doing in 
getting everyone in line, in total compliance?
    Mr. DeGregorio. Thank you, Mr. Chairman. That 
electionline.org survey which we did take a look at was a 
snapshot taken in January 2006. Certainly now that we sit here 
on June 8th with many primaries behind us, we have seen 
significant progress made throughout the country to comply with 
the Help America Vote Act. Certainly some States have been 
challenged in particular rural areas to find polling places 
accessible to people with disabilities. States have been 
challenged because they received equipment late. We have seen 
that happen throughout the country.
    I think if you take Pennsylvania as an example, it was put 
in a very difficult position because they were late in buying 
equipment. They had their primary election May 16th, and it 
came off relatively well. There were doomsday predictions, but 
it didn't happen because election officials are working very 
hard to come in compliance with HAVA.
    We anticipate that by November most of the country will be 
in compliance. Certainly there will be States like New York who 
won't be, and there will be scattered counties who may not have 
changed from the punch card and lever machines and accepted 
money from the EAC to do so. We will have to deal with that.
    But I think we are moving in the right direction, and by 
November, a great chunk of the country will be in compliance 
with HAVA.
    The Chairman. That is very comforting.
    What HAVA requirements are the states having the most 
trouble in meeting, and how are you assisting them in meeting 
those?
    Mr. DeGregorio. Well, I think it is a range of issues. One 
of them is the HAVA requirement to transition to new equipment 
and serve people with disabilities by requiring specific types 
of equipment at the polls, whether it is a touch-screen system 
or another system. And training poll workers to work with 
electronic machines where they haven't done so before is a 
great challenge to election officials around the country, and 
certainly that has been a major point of problems for people in 
local election jurisdictions throughout the country.
    I am going to ask my colleagues if they want to share some 
of the observations they have had.
    The Chairman. Anyone wish to comment?
    Commissioner Davidson.
    Ms. Davidson. Thank you, Mr. Chair.
    One of the biggest areas that some of the States have had 
trouble with is the voter registration file, bringing it in to 
the secretary of states or the election directors' office 
statewide. They may have contracted with vendors, and the 
vendors didn't produce it the way they felt like they should. 
They have gotten their money back, but they are starting over.
    So they have been working with the Justice Department to 
come to the agreement of what they can do, like verifying their 
files against the four digits with Social Security and things 
like that to put them in compliance until they get their system 
up. Even a lot of them feel they will have that up by the 
November election.
    Mr. Martinez. One quick comment, if I could, Mr. Chairman. 
The technology requirements in title 3 of HAVA have been met 
with more challenges by the jurisdictions. The bells and 
whistles require the voting systems, the statewide databases, 
those required expertise that perhaps chief election officials 
like the 38 secretary of states around the country perhaps 
didn't have that technical expertise to build these databases. 
They have it now. They are making diligent efforts to do so.
    It is also true that some of the important requirements 
like provisional voting, you have had compliance by States 
across the board, and, in fact, at least 16 States in this 
country prior to the passage of HAVA had no form of failsafe 
voting prior to HAVA being passed. Now all States have some 
form of provisional voting, and it has ensured that over a 
million voters in the 2004 election cycle did not get 
disenfranchised. I think there are diligent efforts being made 
by our State and local partners.
    The Chairman. Thank you.
    One last quick question. There is a lot of support out 
there for a voter-verified paper audit trail as it is called, 
and we have a bill introduced in the Congress to require that. 
What is your opinion of that? Is that the best way to ensure 
that we can have a complete, accurate audit, or have you 
conjured up or thought of some other approaches that we might 
take to deal with that question?
    Mr. DeGregorio. Mr. Chairman, the EAC hasn't taken a 
position on the VVPAT per se. We have provided in our Voluntary 
Voting System Guidelines, for the use of the VVPAT, which is 
now mandated in 26 of the States across the nation. Just 3 
years ago there were no States with VVPAT; and 2 years ago it 
was just the State of Nevada.
    So, there has been a dramatic change. I think it is the 
whole issue of independent verification of the voting process 
and of the balloting which one takes a look at. We set up 
procedures in our Voluntary Voting System Guidelines, and in 
the management guidelines we will issue this summer, to show 
election officials how they can secure a voting system from 
beginning to end, in which people can have trust and 
confidence.
    Some States have decided to have the voter-verified paper 
audit trail as part of that component to trust the system that 
way. Other States have chosen not to because they feel 
comfortable in the system that is set up because there is an 
audit requirement under HAVA. These electronic machines, even 
those that are not required to have a VVPAT, are required to 
produce audit trails of what is inside the machine so that 
every ballot that is cast can be audited. So they can be 
trustworthy in the system, whether they have VVPAT or not, and 
we haven't taken a position to advocate for that nationwide.
    The Chairman. I would be interested in receiving the 
information you have about the alternatives to VVPAT.
    Commissioner Davidson.
    Ms. Davidson. Also, the National Institute of Standards and 
Technology is working on this. This is one of the things they 
are looking at. As that comes forth and they give more 
recommendations, we will make sure you get that information.
    The Chairman. That is very helpful.
    My time has expired.
    Ms. Millender-McDonald. Thank you so much, Mr. Chairman.
    I concur with my colleague in sending this letter to the 
appropriators with reference to FTEs and getting that 
straightened out. So thank you for that.
    I would also like to say that the issue that came up with 
my colleague Mr. Mica on the Arizona dispute, I want to remind 
us that this Commission is not a legislative body. It is 
incumbent upon us to try to see what we can do, Mr. Chairman, 
in terms of legislation or trying to see if we can alleviate or 
address that issue from the legislative body here. It is not 
theirs to do. I don't think votes by them or anything else 
should be requested.
    On the military issue that we talked about and the lack of 
getting follow-through information and getting those--the 
database or the information back is something that is extremely 
important, given our military folks overseas in different 
places.
    Mr. Chairman, perhaps a hearing would be in place to bring 
forth our military folks who are responsible for that to see 
just why is it that we are not adhering to their participation 
in elections and getting this information back in a timely 
manner.
    I would certainly like to recommend, if you will, Mr. 
Chairman, that we look into a hearing on the military voting 
process.
    We do recognize that there are some issues with 
underfunding the last of the required HAVA payment in December 
of 2005, and the States are still struggling to meet the HAVA 
requirements because the law has been underfunded by nearly $1 
billion. Can you tell me some of the issues States are facing 
because of this shortfall?
    Mr. DeGregorio. I can address a few.
    Ms. Millender-McDonald. Mr. Chairman.
    Mr. DeGregorio. I can address a few.
    Ms. Millender-McDonald. Many chairmen in this room.
    Mr. DeGregorio. It has been difficult. This has been a 
process where the Federal Government took a big step when it 
appropriated $3.1 billion, and the States under HAVA were 
required to make a 5 percent match, and they have done so. We 
have seen in many States, including your State of California, 
Madam Ranking Member, the passage of a bond issue to provide 
funds at the local level. So that has all been helpful.
    But across the country it has been difficult for many 
jurisdictions, particularly small jurisdictions throughout the 
country that have had the challenge of a one- or two-person 
office in dealing with technology and IT and equipment that 
they have never been used to, so they have had to put up some 
money.
    We recognize that technology is ever changing, and 
particularly with electronic voting that has been introduced in 
a major way in the country in the past 5 years, that there are 
going to be software and hardware changes, and improvements. As 
the Chairman mentioned, the human factor portion of voting, and 
making it easier to use this equipment are some examples.
    There is going to be an increase in demand and need for 
funds to change the equipment, to improve the equipment. We 
know that is probably coming sooner rather than later in the 
country, and you are going to hear about it probably from 
election officials within the next few years.
    Ms. Millender-McDonald. That is exactly right, and there is 
ongoing changes in technology and IT, and there is a critical 
need, Mr. Chairman, for us to look at this again and to try to 
see what we can do to remedy that.
    When Mr. Mica asked about the budget for you, we are 
reminded that you were authorized for 3 years to try to 
implement HAVA, and because the President has the last word in 
authorizing or presenting a budget for you to continue, then 
you can really go into perpetuity, and I think it would be wise 
for this President to do that because of the effective way you 
have brought about the improvements.
    Mr. DeGregorio. Madam Ranking Member, we have been pleased 
by the administration's support of the EAC. They have actually 
requested more funds than the Congress has appropriated for our 
operations budget. So, they have been very supportive over the 
last 3 years of the EAC and our funding.
    Ms. Millender-McDonald. Given there are so many different 
election laws and, of course, the civil rights law, and the 
voting rights reauthorization law is upon us now, are you 
working with other agencies to ensure enforcement of these 
laws? How do you connect with NVRA and civil rights and the 
Disabilities Act and others?
    Any one of you can answer that.
    Mr. DeGregorio. We have ongoing discussions with the 
Department of Justice about every element of the Help America 
Vote Act, recognizing their important role in enforcement, but 
also recognizing that it is important for us to have 
discussions.
    We receive information, we have hearings, we have meetings 
where we hear from various groups about problems and 
difficulties they are having and about noncompliance with HAVA, 
the Voting Rights Act, or our elements of Federal laws that 
deal with elections. So, it is a partnership with them. We work 
closely with them to have discussions, but they are the 
enforcers of the Voting Rights Act.
    Ms. Millender-McDonald. But the connectivity is there, and 
you have those ongoing discussions. Of course, if you are out 
there trying to improve upon voter participation and all of 
that, then you certainly want to be consulted by how these 
would either impede or expand your participation.
    Mr. Chairman, thank you so much.
    The Chairman. The gentlewoman's time has expired.
    The gentleman from Ohio.
    Mr. Ney. Thank you, Mr. Chairman. I just wanted to follow 
up on something I think the Chairman said; e-mails of the 
ballots. The staff of the committee, bipartisan, Republican and 
Democrat, talked to ex-pats in Lebanon and Istanbul, and we met 
with the ex-pat groups. And I think it is the State of 
Virginia, I could be wrong, but one of them e-mails over to you 
when you are overseas, and you print that out, and then you can 
mail it back.
    I don't know how we promote that for the whole country to 
do, but it is fantastic because the ex-patriots are overseas, 
and it is a wonderful way to get that ballot, and they can mail 
it back.
    Have you had--I appreciate the staff, Ranking Member's and 
ours, for the time they looked at that. Have you had any 
involvement with that type of thing? That could be implemented 
in all 50 States.
    Mr. DeGregorio. Congressman, you are right. There are 
plenty of State examples and State initiatives to facilitate 
voting by military and overseas voters and ex-pats. Some States 
are doing a great job in trying these innovations, whether they 
are using electronic means to send a ballot through the 
Internet, allowing a voter to download their ballot off the 
Internet, or faxing ballots overseas. Most of them, in fact I 
think about all of them, follow a process of returning the 
ballots physically.
    However, there is still this problem that we have in 
America with many of the States that have late primaries. So if 
you are in New York, or Washington, States that have primaries 
the second week in September, and they have to turn around to 
get their ballot ready for the November election, that may 
typically take 2 to 3 weeks. You are looking at maybe at best a 
30-day period to get ballots to someone overseas and back. 
Study after study has shown it takes 42 days to get that done.
    Mr. Ney. So e-mail would be instant.
    Mr. DeGregorio. That is why, Congressman Ney, we are 
looking at several States, and we are going to highlight that 
in our study this year, to encourage our States to look at 
something like this to serve voters overseas.
    Mr. Ney. I think it would be a wonderful thing to do 
because, again, the issue is the ability to vote, people's 
right to vote, and that is why with the provisional votes, 
because somebody one time said this could hold up elections, it 
is better to have a delay at the end of the day, have the 
provisionals counted, than for people to be turned away for 
whatever reason at a poll.
    But for the ex-pats that are overseas and the military, it 
is the distance factor in getting it to them. Anything you 
could pursue on that I think would be really a wonderful thing.
    I have one other question before my time runs out. With the 
whole issue of the security, Maryland, I believe, does random 
checks, if I remember right, on their machines. Isn't that 
correct?
    Ms. Davidson. Maryland does. Many States do, yes.
    Mr. Ney. I don't know why the States don't do that, and 
this whole question of the security, just like the slot 
machines, they have this whole system from when they are 
manufactured to when they are tested in place, and with these 
machines, if there was required random testing, I think it 
would put to rest and people would feel better about the 
security of these machines. Have you looked into that at all?
    Mr. DeGregorio. Mr. Ney, we are. In fact, in the draft we 
are developing for our certification process, as has been 
described this morning, and we are taking a look at doing 
random checks of voting equipment. As we look at certification 
of equipment, we are looking at the prospect of the EAC taking 
on a role of doing random tests of voting devices throughout 
the country.
    Mr. Ney. In closing, I just want to say something. Also, 
thank you for your work with Louisiana. I personally talked to 
the secretary of state, and we have written a letter to 
Justice. Some States haven't complied, and Louisiana did 
everything humanly possible with the worst situation a State 
could have. I really have got to give the secretary of state 
and you working with him a lot of credit; and also as people 
were scattered about the country, to get those ballots out to 
them, I think Louisiana secretary of state and everybody 
involved with this, you all deserve a lot of credit in a bad 
situation to try some efforts there when other States haven't 
complied and didn't have the catastrophe that Louisiana had.
    The Chairman. The gentleman's time has expired.
    The gentlelady from Michigan, Mrs. Miller.
    Mrs. Miller. Thank you, Mr. Chairman.
    I might pick up a little bit on what Representative Ney is 
talking about with military voting, in particular ex-pats, et 
cetera. Everybody is talking about vote on the Internet. 
Everything is happening on the Internet. And, of course, 
everybody has consternation about fraud and whether we would be 
able to, through digital signatures or what have you, verify 
that these people that are voting are the individuals that--who 
are actually casting that ballot.
    I believe that the Department of Defense--and I am not sure 
if any of you are aware of this, but I think DOD actually has a 
contract to do vote by the Internet for overseas military. I am 
not quite sure how all of that would work. Obviously it would 
be easy enough to download a ballot for a national candidate, 
but individual precincts, even going down to precinct delegate-
type things, they might not be able to download an entire 
ballot by precinct. I am not certain how that works.
    Even if you had the ability to download a ballot and then 
had to fill it out and send it back, you would eliminate or 
certainly compress the time. The Chairman was mentioning 42 
days, 45 days. You would eliminate a big part of the process.
    Are any of you aware of the Department of Defense contract, 
and do you have any comment on that?
    Mr. DeGregorio. We are certainly, Madam Congresswoman, well 
aware of the work that was done by the Federal Voting 
Assistance Program under the Department of Defense that they 
did in 2004. It was called the SERVE Project, and it was a 
pilot project to allow people to cast ballots through the 
Internet, military and overseas voters. However, the project 
began in the Summer of 2003 and was shut down by the Department 
of Defense in March of 2004 because of the concerns of some 
academics over the security of the system.
    Now they did spend, it was estimated to me, over $20 
million on this project. We did get a private briefing about 
the results of their work, and that helps instruct us when we 
look at utilizing our funds to look into Internet voting, 
particularly for military and overseas voting. So it was 
helpful for us to learn from what they did.
    But this is an important area, and I think one that 
certainly can provide greater access for military men and women 
and overseas voters, and that is why we are taking a look at it 
and want to devote some of our efforts in this area in addition 
to the Federal Voting Assistance Program.
    Mrs. Miller. Just one other question. Part of the total 
voting experience, when an individual or voter shows up at the 
polls, poll workers are a big part of the process. And some 
poll workers do their job very well, and some do not do a great 
job. But I am a big fan, and I know Michigan has done this--and 
if you can just tell us how many other States may have done 
this--of utilizing our younger generation for poll workers. 
When you have 16- and 17-year-olds, first of all they are 
willing to work those long hours for very little money, and 
they are very enthusiastic, which is a great thing. And it is a 
wonderful way to get them engaged into democracy, I think, as 
well. And as technology is changing, they are not afraid of the 
technology or new methods. No problem for them to change the 
way they are doing things. And they are always looking to 
improve on that.
    And I am just wondering if the EAC has taken a position on 
that. It is a big part of the process. Any comment on that?
    Ms. Hillman. Congresswoman, thank you for the question. The 
EAC is certainly a strong proponent of involving young people 
in the election process. And those States where the law allows 
the participation of young people, they certainly are beginning 
to put together creative programs.
    I think, to answer a question that was raised earlier about 
some of the effects of the fact that the total appropriation 
wasn't made, some States have had to cut back on the amount of 
money they would have used for the training and recruitment of 
poll workers, including students, in order to fulfill their 
other responsibilities, such as the statewide voter 
registration and the databases.
    There are the occasional elected officials who aren't sure 
that the amount of time they perceive has to go into the 
training of young people would provide them the benefit that 
they seek with respect to the perception of an adult poll 
worker perhaps coming back a second time; but through the 
college poll worker program, we found that the students really 
get engaged and have a much better appreciation and affection 
for the system once they are on the inside.
    Mrs. Miller. Thank you, Mr. Chairman.
    The Chairman. I see no further questions. And we are going 
to have a vote on the floor in just a few minutes. So with 
that----
    Ms. Millender-McDonald. Just one quick one, Mr. Chairman.
    The Chairman. Yes. The Ranking Member is recognized.
    Ms. Millender-McDonald. First, I would like to commend you 
on this. This is just great. I think it is so innovative. And 
this is volunteer--voluntary voting systems guidelines that you 
spoke about earlier. So this is the apparatus.
    And we talk about, really, more high participation of 
voters. We look at the State of Oregon, where they have mail-in 
voting, by-mail-only voting. We are talking about early voting 
that some States are going to. And we have just got to get away 
from just one-size-fits-all now. We have got to do, to me, a 
myriad of things for voters to really find the time to 
participate. You have working mothers, working fathers, single 
parents, and so I think it is just so incumbent upon us to not 
be so myopic when it comes to just Tuesday voting, but have 
other means of voter participation. I am hearing that in Oregon 
they have high participation because of this mail-only type of 
voting.
    And so I commend you on the work that you have done, the 
work that you are doing; you are just such an asset to us in 
trying to bring this democracy to--to continue this great 
democracy of ours.
    And I thank you, again, Mr. Chairman, so much for this 
outstanding oversight hearing.
    The Chairman. I thank you for that comment. And I am a 
little surprised to hear you support mail-only voting.
    Ms. Millender-McDonald. Well, there are many other ones, 
too, Mr. Chairman.
    The Chairman. Well, I didn't want you to be accused of 
gender discrimination.
    Ms. Millender-McDonald. This is why he is a physicist, by 
the way.
    Mr. Ney. I will be very brief. I just want to thank you, 
Mr. Chairman, for the hearing and also the Commission for the 
great work you do.
    Jimmy Carter and--President Jimmy Carter and President 
Gerald Ford had said that next to the Voting Rights Act of 
1965, this is one of the most profound pieces of legislation to 
affect the ability to do something about fraud and also to have 
people able to vote. And the big component follow-up to those 
comments in the Ford-Carter Commission, after legislation 
passed, is all of you and commissions. So I really appreciate 
the job that you have all done to break new ground where we 
never went before. Thank you.
    The Chairman. And I would like to join in that.
    Thank you very much for spending your time with us. You 
have been extremely helpful. Your testimony has been right on 
in terms of the issues that we were concerned about and wanted 
to look at. And so it has been very, very helpful to hear your 
thoughtful comments, and we will continue to look into this 
issue and we will be in further contact with you.
    I ask unanimous consent that members and witnesses have 7 
calendar days to submit material for the record, including 
additional questions of the witnesses, and for those statements 
and materials to be entered into the appropriate place in the 
record. Without objection, so ordered.
    I ask unanimous consent that staff be authorized to make 
technical and conforming changes on all matters considered by 
the Committee at today's hearing. Without objection, so 
ordered.
    Having completed our business for today and for this 
oversight hearing, the Committee is hereby adjourned. And thank 
you again for sharing your wisdom with us. The meeting is 
adjourned.
    [Whereupon, at 11:42 a.m., the committee was adjourned.]
</pre></body></html>
